     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

June 10, 2010

Report Number: A-04-09-00057

Ms. Alana Sullivan
Chief Compliance Officer
Erlanger Medical Center
975 East Third Street
Whitehall Building – Suite 513
Chattanooga, TN 37403

Dear Ms. Sullivan:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part A Bad Debts at Erlanger Medical
Center for the Fiscal Year Ended June 30, 2005. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-09-00057 in all correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr. for/
                                             Peter J. Barbera
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Alana Sullivan


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF 

      INSPECTOR GENERAL 





     REVIEW OF MEDICARE 

PART A BAD DEBTS AT ERLANGER 

MEDICAL CENTER FOR THE FISCAL 

         YEAR ENDED 

       JUNE 30, 2005 




                      Daniel R. Levinson

                       Inspector General 


                          June 2010 

                        A-04-09-00057 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation. CMS contracts with
Medicare fiscal intermediaries and administrative contractors to, among other things, process
and pay claims submitted by Medicare providers. Fiscal intermediary and Medicare
administrative contractor responsibilities include determining reimbursement amounts,
conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal intermediaries
and Medicare administrative contractors use the Medicare cost report for final settlement of
Medicare reimbursement due to or from providers.

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share in
defraying the costs of inpatient care through various deductibles and coinsurance amounts. This
policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 1983, inpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are pass-
through costs and continue to be reimbursed under reasonable cost principles. Hospitals claim
reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and derived
from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts were made,
(3) the debts were actually uncollectible when claimed as worthless, and (4) sound business
judgment established there was no likelihood of recovery at any time in the future. Furthermore,
Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce their bad debts by the
amount that they recover from previously written off bad debts. Because Federal regulations
(42 CFR § 413.89(h)) reduced reimbursement for Medicare bad debts by 30 percent in fiscal
year (FY) 2005, Medicare reimbursed 70 percent of the bad debts claimed.

Erlanger Medical Center (Erlanger) is an 819-bed acute care and 50-bed long term care hospital
located in Chattanooga, Tennessee. Erlanger includes a Level I trauma center, a teaching center,
and a tertiary care services center. On its hospital cost report for July 1, 2004, through June 30,
2005, Erlanger claimed $1,570,958 ($1,099,671 reimbursement) for Medicare inpatient bad
debts (bad debts).




                                                 i
OBJECTIVE

Our objective was to determine whether bad debts claimed on Erlanger’s FY 2005 hospital cost
report were allowable under Medicare regulations and were reduced by bad debt recoveries.

SUMMARY OF FINDINGS

Erlanger properly reported 76 out of 110 bad debts in our sample on its FY 2005 hospital cost
report and reduced its bad debts by recoveries received during FY 2005. However, the
remaining 34 bad debts in our sample were not allowable under Medicare regulations.
Specifically, Erlanger claimed 34 unallowable bad debts totaling $78,116 as follows:

   	   33 bad debts totaling $45,273 were for accounts that were still with a collection agency
        when written off and, therefore, did not meet the definition of uncollectible when claimed
        as worthless and

   	   4 bad debts (3 of which were also included in the 33 bad debts in the previous bullet)
        totaling $32,843 were for non-covered services and were not derived from unpaid
        deductible and coinsurance amounts.

Erlanger generally claimed unallowable bad debts because its policies and procedures required
accounts to be written off at the time they were referred to a collection agency. Additionally, in
some cases Erlanger claimed unallowable bad debts because its patient financial system did not
recognize and remove non-covered service charges from patient accounts before transferring the
balances to bad debt.

Based on our statistical sample results, we estimated that Erlanger claimed $471,171 for bad
debts that were not reimbursable under Medicare regulations. Of this amount, $438,328 related
to bad debts that were with a collection agency. A CMS memorandum dated May 2, 2008,
entitled Clarification of Medicare Bad Debt Policy/Bad Debt Policy Related to Accounts at a
Collection Agency, states that Medicare contractors are required to disallow Medicare bad debts
for accounts at a collection agency. This same memorandum instructed Medicare contractors not
to reopen cost reports to disallow such bad debts prior to May 2, 2008. Therefore, we are not
recommending a $438,328 reduction to the bad debt total claimed by Erlanger on its cost report
or a refund of the $306,830 in related reimbursement. The remaining balance of $32,843 was
unallowable for other reasons specifically related to Erlanger’s actions and should be adjusted on
Erlanger’s cost report. Additionally, three bad debts totaling $22,150 that were not in our
sampling frame were duplicate bad debts caused by incorrect adjustments.




                                                ii
RECOMMENDATIONS

We recommend that Erlanger:

      request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare bad
       debts by $54,993 and refund $38,495 in related overpayments,

      review its previously submitted FY 2008 cost report and ensure compliance with CMS’s
       bad debt policy, and

      ensure that cost reports submitted in the future comply with CMS’s bad debt policy.

ERLANGER MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, Erlanger agreed with our findings and recommendations
pertaining to overpayments for bad debts that were not derived from Medicare deductible and
coinsurance amounts or were duplicate bad debts. However, Erlanger disagreed with our finding
regarding patient accounts that were claimed as Medicare bad debts while the accounts were still
with a collection agency. Regarding our recommendations that Erlanger review its previously
submitted FY 2008 cost report and ensure compliance with CMS’s bad debt policy and ensure
that cost reports submitted in the future comply with CMS’s bad debt policy, Erlanger stated that
it would ensure compliance with the laws and regulations governing Medicare bad debt policy.
Erlanger’s comments (minus attachments) are included as Appendix E.

After reviewing Erlanger’s comments, we maintain that our findings and recommendations are
valid.




                                               iii
                                                  TABLE OF CONTENTS 


                                                                                                                                      Page


INTRODUCTION..........................................................................................................................1


          BACKGROUND .................................................................................................................1 

              Medicare Fiscal Intermediaries and Administrative Contractors ............................1 

              Medicare Bad Debt Policy .......................................................................................1 

              Erlanger Medical Center ..........................................................................................2                 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2 

               Objective ..................................................................................................................2 

               Scope .......................................................................................................................2 

               Methodology ...........................................................................................................2           


FINDINGS AND RECOMMENDATIONS ................................................................................3 


          BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS .............4 


          NON-COVERED SERVICES CLAIMED AND DUPLICATES.......................................4 


          CONCLUSION....................................................................................................................5 


          RECOMMENDATIONS .....................................................................................................5                  


          ERLANGER MEDICAL CENTER COMMENTS .............................................................5 


          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................6 


APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT WERE NOT
               UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

          C – RESULTS FOR UNALLOWABLE BAD DEBTS RELATED TO ERLANGER’S
               ACTIONS

           D – RESULTS FOR UNALLOWABLE BAD DEBTS RELATED TO ERLANGER’S
               ACTIONS – DUPLICATES

          E – ERLANGER MEDICAL CENTER COMMENTS




                                                                    iv
                                             INTRODUCTION 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation.

Medicare Fiscal Intermediaries and Administrative Contractors

CMS contracts with Medicare fiscal intermediaries1 and administrative contractors to, among
other things, process and pay claims submitted by Medicare providers. Fiscal intermediary
and Medicare administrative contractor responsibilities include determining reimbursement
amounts, conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal
intermediaries and Medicare administrative contractors use the Medicare cost report for final
settlement of Medicare reimbursement due to or from providers.

Medicare Bad Debt Policy

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share
in defraying the costs of inpatient care through various deductibles and coinsurance amounts.
 This policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 1983, inpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are
pass-through costs and continue to be reimbursed under reasonable cost principles. Hospitals
claim reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and
derived from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts
were made, (3) the debts were actually uncollectible when claimed as worthless, and (4)
sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce
their bad debts by the amount that they recover from previously written off bad debts.
Because Federal regulations (42 CFR § 413.89(h)) reduced reimbursement for Medicare bad
debts by 30 percent in fiscal year (FY) 2005, Medicare reimbursed 70 percent of the bad debts
claimed.

1
 Effective October 1, 2005, Congress amended the Social Security Act to require that CMS contract with
Medicare administrative contractors instead of fiscal intermediaries (Part A) and carriers (Part B) by October
2011. Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 § 911,
Social Security Act, §§ 1816 and 1842, 42 U.S.C. §§ 1395h, 1395u and 1395kk-1.


                                                        1

Erlanger Medical Center

Erlanger Medical Center (Erlanger) is an 819-bed acute care and 50-bed long term care
hospital located in Chattanooga, Tennessee. Erlanger includes a Level I trauma center, a
teaching center, and a tertiary care services center. On its hospital cost report for July 1,
2004, through June 30, 2005, Erlanger claimed $1,570,958 ($1,099,671 reimbursement) for
Medicare inpatient bad debts (bad debts).2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether bad debts claimed on Erlanger’s FY 2005 hospital
cost report were allowable under Medicare regulations and were reduced by bad debt
recoveries.

Scope

Our review was limited to $1,628,359 that included $1,605,333 in bad debts reported on the
bad debt listing supporting Erlanger’s FY 2005 hospital cost report3 and $23,026 in potential
duplicate bad debts. We reviewed a sample of 100 bad debts ranging between $500 and
$2,999 totaling $87,492 and separately reviewed 10 bad debts valued at $3,000 or more and
totaling $72,632. We also reviewed the accuracy and completeness of bad debt recoveries
reported by Erlanger during FY 2005.

We limited our review of Erlanger’s internal controls to those controls applicable to
Erlanger’s managing and reporting of its bad debts.

We conducted our fieldwork from December 2008 through February 2009 at Erlanger in
Chattanooga, Tennessee.

Methodology

To accomplish our objective, we:

        reviewed applicable Medicare laws, regulations, and guidance;

        held discussions with CMS officials regarding Medicare bad debt program guidance;



2
 On its hospital cost report, Erlanger claimed $1,570,958 in Medicare bad debts, which equaled the $1,638,434
per its bad debt listing reduced by $67,476 in bad debt recoveries.
3
  As explained in Appendix A, our sampling frame of $1,605,333 equaled $1,638,434 minus 69 bad debts
totaling $16,668 that were less than $50, minus 4 bad debts totaling $23,026 that were potential duplicates, plus
11 bad debts totaling $6,593 that were negative adjustments.


                                                        2

   	 evaluated Erlanger policies and procedures regarding the collection of deductibles and
      coinsurance amounts;

   	 obtained a list of bad debts claimed in FYs 2004 and 2005;

   	 tested the lists of bad debts from FYs 2004 and 2005 for duplicate bad debts on the FY
      2005 cost report;

   	 conducted a stratified sample of bad debts as noted in Appendix A;

   	 validated the population of FY 2005 bad debt write offs;

   	 reviewed the patient accounting financial records, Medicare remittance documents,
      Medicaid remittance documents, and collection activity records for the 110 bad debts
      selected in the sample;

   	 used the Office of Inspector General, Office of Audit Services (OIG/OAS) statistical
      software to estimate the number and dollar value of unallowable bad debts for
      accounts that were with a collection agency when claimed as worthless (Appendix B);

   	 reviewed the collection agencies’ contracts and bad debt invoices for FY 2005; and

   	 reviewed financial records for bad debt recoveries to determine the accuracy and
      completeness of bad debt recovery amounts used to reduce bad debts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Erlanger properly reported 76 out of 110 bad debts in our sample on its FY 2005 hospital cost
report and reduced bad debts by bad debt recoveries. However, the remaining 34 bad debts in
our sample were not allowable under Medicare regulations. Specifically, Erlanger claimed 34
unallowable bad debts in our sample totaling $78,116 as follows:

   	   33 bad debts totaling $45,273 were for accounts that were still with a collection
        agency when written off and, therefore, did not meet the definition of uncollectible
        when claimed as worthless and




                                               3

    	   4 bad debts totaling $32,843 were for non-covered services and were not derived from
         unpaid deductible and coinsurance amounts.4

Erlanger generally claimed unallowable bad debts because its policies and procedures
required accounts to be written off at the time they were referred to a collection agency.
Additionally, in some cases Erlanger claimed unallowable bad debts because its patient
financial system did not recognize and remove non-covered service charges from patient
accounts before transferring the balances to bad debt. Furthermore, three bad debts totaling
$22,150 that were not in our sampling frame were duplicate bad debts caused by incorrect
adjustments.

BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

Federal regulations (42 CFR § 413.89(e)(3)) require that a bad debt be “actually uncollectible
when claimed as worthless.” Moreover, Federal regulations (42 CFR § 413.89(e)(4)) require
that there be “no likelihood of recovery at any time in the future.” Accordingly, a May 2,
2008, CMS Joint Signature Memorandum (JSM), entitled Clarification of Medicare Bad Debt
Policy/Bad Debt Policy Related to Accounts at a Collection Agency, states that Medicare
contractors are required to disallow Medicare bad debts for accounts at a collection agency.

The memorandum states that it has been CMS’s longstanding policy that when an account is
in collection, a provider cannot have determined the debt to be uncollectible and cannot have
established that there is no likelihood of recovery under the regulations. That is, until a
provider’s reasonable collection effort has been completed, a Medicare bad debt may not be
deemed as uncollectible. According to CMS, the collection policy supporting the regulation
applies to a provider’s entire collection effort, both in-house and by use of a collection
agency.

Contrary to these regulations, we identified 33 unallowable bad debts totaling $45,273 for
accounts that were still with a collection agency when written off. These bad debts did not
meet the definition of “uncollectible” when claimed as worthless because they could still have
been recovered in the future.

NON-COVERED SERVICES CLAIMED AND DUPLICATES

Federal regulations (42 CFR § 413.89(e)(1)) state that for a bad debt to be allowable, it must
be related to covered services and derived from deductible and coinsurance amounts. Four
bad debts totaling $32,843 in our sample were not derived from Medicare deductible and
coinsurance amounts. Additionally, three bad debts totaling $22,150 were duplicate bad debts
caused by incorrect adjustments.


4
  Three of these bad debts were for accounts that were still with a collection agency when written off, that did not
meet the definition of uncollectible when claimed as worthless, and that were also included in the 33 bad debts in
the previous bullet. A portion of these bad debts was recognized in each bullet, the sum of which was limited to
the total bad debt claimed.


                                                         4

CONCLUSION

Our sample review identified 33 unallowable bad debts totaling $45,273 for accounts that
were still with a collection agency when written off. Based on our sample results, we
estimated that Erlanger claimed 490 such bad debts on its FY 2005 cost report, representing
$438,328 in bad debts, and received $306,830 in related reimbursement. However, the May
2, 2008, JSM, stated that Medicare contractors whose practice had been since August 1, 1987,
to allow hospitals to claim as bad debts accounts at a collection agency should not reopen cost
reports to disallow bad debts that were improperly paid for this reason prior to May 2, 2008.5
Therefore, we are not recommending a $438,328 reduction to the bad debt total claimed by
Erlanger on its FY 2005 cost report or a refund of the $306,830 in related reimbursement.
(See Appendix B for details on our sample results and estimates.)

Our review also identified 7 bad debts totaling $54,993 that were unallowable for other
reasons specifically related to Erlanger’s actions. Four bad debts totaling $32,843 in our
sample were not derived from Medicare deductible and coinsurance amounts. (See
Appendix C for details on our sample results.) Additionally, three bad debts totaling $22,150
that were not in our sampling frame were duplicate bad debts caused by incorrect
adjustments. (See Appendix D for details on our non-sample results relating to duplicate bad
debts.)

RECOMMENDATIONS

We recommend that Erlanger:

    	 request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare
       bad debts by $54,993 and refund $38,495 in related overpayments,

    	 review its previously submitted FY 2008 cost report and ensure compliance with
       CMS’s bad debt policy, and

    	 ensure that cost reports submitted in the future comply with CMS’s bad debt policy.

ERLANGER MEDICAL CENTER COMMENTS

In written comments on our draft report, Erlanger agreed with our findings and
recommendations pertaining to overpayments for bad debts that were not derived from
Medicare deductible and coinsurance amounts or were duplicate bad debts caused by
incorrect adjustments.

Erlanger disagreed with our finding regarding patient accounts that were claimed in
Erlanger’s FY 2005 cost report as Medicare bad debt while the accounts were still with a
collection agency. Erlanger stated that these accounts were allowable Medicare bad debt

5
  In 1987 the fiscal intermediary for Tennessee allowed bad debt write-offs at the time patient accounts were sent
to a collection agency. This practice was continued in Tennessee until May 2, 2008.


                                                        5

given the “bad debt moratorium” and the Foothill Hospital v. Leavitt, 558 F. Supp.2d 1 (D.C.
2008) decision.

Regarding our recommendation that Erlanger review its previously submitted FY 2008 cost
report and ensure compliance with CMS’s bad debt policy, as well as our recommendation
that Erlanger ensure that cost reports submitted in the future comply with CMS’s bad debt
policy, Erlanger stated that it would ensure compliance with the laws and regulations
governing Medicare bad debt policy. Erlanger’s comments (minus attachments) are included
as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Erlanger’s comments, we maintain that our findings and recommendations
are valid. Although we did not make any recommendation pertaining to patient accounts that
were claimed in Erlanger’s FY 2005 cost report as Medicare bad debt while the accounts were
still with a collection agency, Erlanger’s disagreement with our finding is not merely
academic in light of Erlanger’s response to our recommendations regarding the FY 2008 cost
report and future cost reports. Erlanger appears to be drawing a distinction between “CMS’s
bad debt policy,” with which it expressly disagrees, and the “laws and regulations governing
Medicare bad debt policy,” with which it purportedly agrees.

Our finding that patient accounts claimed in Erlanger’s FY 2005 cost report as Medicare bad
debt while the accounts were still with a collection agency were unallowable was based on
Federal regulations (42 CFR §§ 413.89(e)(3) and (4)), which predated the bad debt
moratorium. CMS’s bad debt policy, expressed in its May 2, 2008, JSM, also is grounded in
these regulations. The distinction Erlanger has drawn is not valid.




                                             6

APPENDIXES

                                                                                     Page 1 of 2

                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare Part A bad debts that were claimed on Erlanger Medical
Center’s FY 2005 hospital cost report.

SAMPLING FRAME

Erlanger Medical Center provided two Excel files supporting Part A and Part B Medicare bad
debts claimed on its 2005 cost report. One file included Part A and Part B crossover bad debts,
and the other file included Part A and Part B non-crossover bad debts. We separated the Part A
and Part B data from each file and combined the two Medicare Part A bad debt worksheets to
create a single Medicare Part A worksheet that comprised 1,825 line items. We removed 4
duplicate Medicare Part A bad debts totaling $23,026. The remaining 1,821 bad debts totaling
$1,615,408 represented bad debts claimed on the cost report (excluding an offset for recoveries
totaling $67,477). We sorted the bad debts in descending order and separated the 1,821
Medicare Part A bad debts as follows:

      10 bad debts totaling $72,632 that were $3,000 or greater,

      1,731 bad debts totaling $1,532,701 that were $500 or greater but less than $3,000,

      69 bad debts totaling $16,668 that were less than $500, and

      11 negative amounts for recoveries totaling ($6,593).

To avoid extreme variations in bad debts within our frame, we excluded the 80 bad debts totaling
$10,075 that were less than $500. We then created a new excel file containing 1,741 bad debts
$500 or greater totaling $1,605,333. This file is our sampling frame.

SAMPLE UNIT

The sample unit was a Medicare Part A bad debt.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into two strata based on
dollar value. Stratum 1 consisted of bad debts $500 or greater but less than $3,000. Stratum 2
consisted of all bad debts $3,000 or greater.

                                                      No. of Claims in
                             Stratum                  Sampling Frame
                          1 - $500 - $2,999                1,731
                          2 - ≥ $3,000                        10
                               Total                       1,741
                                                                                      Page 2 of 2


SAMPLE SIZE

We randomly selected 100 bad debts $500 or greater but less than $3,000. We reviewed all 10
bad debts that were $3,000 or greater. The total sample size was 110.


                            Stratum                  Sampling Items
                         1 - $500 - $2,999                100
                         2 - ≥ $3,000                      10
                            TOTAL                         110

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the OIG/OAS statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the bad debts that were $500 or greater but less than $3,000 from 1
through 1,731. After generating 100 random numbers, we selected the corresponding frame
items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the number and dollar value of
unallowable bad debts claimed during fiscal year 2005.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT WERE 

            NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS 


   SAMPLE RESULTS

                                                                       No. of       Value of
                    Frame      Value of    Sample      Value of
    Stratum                                                         Unallowable   Unallowable
                     Size       Frame       Size       Sample
                                                                     Bad Debts     Bad Debts

1 - $500 - $2,999   1,731     $1,532,701    100        $87,492            28        $24,099

2 - ≥ $3,000         10         72,632       10         72,632            5         21,174

    TOTAL           1,741     $1,605,333    110       $160,124            33        $45,273



   ESTIMATES
                               Estimated Unallowable Bad Debts
                      Limits Calculated for a 90-Percent Confidence Interval
                                               Estimated           Estimated
                                                Value of             No. of
                                              Unallowable         Unallowable
                                               Bad Debts           Bad Debts
                      Point Estimate
                          Stratum 1               $417,154           485
                          Stratum 2                 21,174            5
                              TOTAL               $438,328           490


                      Lower Limit                 $330,956           365
                      Upper Limit                 $545,700           614
      APPENDIX C: RESULTS FOR UNALLOWABLE BAD DEBTS RELATED TO
                          ERLANGER’S ACTIONS

 SAMPLE RESULTS


                                                                No. of       Value of
                    Frame    Value of    Sample   Value of
    Stratum                                                  Unallowable   Unallowable
                     Size     Frame       Size    Sample
                                                              Bad Debts     Bad Debts


1 - $500 - $2,999   1,731   $1,532,701    100     $87,492        0             $0


2 - ≥ $3,000         10      72,632        10      72,632        4           32,843


TOTAL               1,741   $1,605,333    110     $160,124       4           $32,843
        APPENDIX D: RESULTS FOR UNALLOWABLE BAD DEBTS RELATED TO
                     ERLANGER’S ACTIONS – DUPLICATES


   NON-SAMPLE RESULTS

                                                No. of Duplicates   Value of Duplicates
                       No. of       Value of
                                                    Deemed                Deemed
      Dollar Value    Potential    Potential
                                                Unallowable As      Unallowable As Bad
                      Duplicates   Duplicates
                                                   Bad Debts               Debts

1 - $500 - $2,999         3         $1,919             2                  $1,043


2 - ≥ $3,000              1         21,107             1                  21,107


TOTAL                     4         $23,026            3                 $22,150
                                                                                             Page 1 of 3 



APPENDIX E: ERLANGER MEDICAL CENTER COMMENTS




erlanger

May 10,2010



By Email   y ill   the HHS/OIG Delivery Server

Peter J. Borbern
 Rcgionnllnspeclor General for Audi t Services
Office of the Inspector General
Office of Audit Services, Region IV
6 1 Forsyth Street, SW, Suite 3T41
 Atlanta, GA 30303

RE:    Report Number: A ~04·09-00057 - Review of Medicnre Part A Bad Debts at
       Erlanger Medical Center for the ]:iscal Year Ended June 30, 2005 and Report
       Number: A-04-09-000058 · Review of Medicare Part B Dad Debts at Erlanger
        Medical Center for the Fiscal Year Ended June 3D, 2005

Dear Mr. B

This letter contains comments from Erlanger Medical Center on the March 30, 2010 and
March) 1,2010 drans reports concerning the Office of Inspector General 's (DIG) audits
of Medicare Pans A and B bad debts for fiscal year ended June 30, 2005. Erlanger
Ilcallh Syslem appreciales Ihc brief eXlension 10 rcspond 10 these reports granlcd 10
EI'langcr by Eric Bowcn of your ulli!.:c liS well as thc opportunity to provide additiomll
!.:ommcllts 10 be included in the final repmi. I unde"stund thilt Ihis response will be
SUlllmarized in the body of the final report and also be included in its enti rety as an
appendix.


General Comm enfN

With respect to being able properly to claim and be reimbursed for Medicare bad debts at
the time when accounts were sent to a collection Ilgency, Erlllnger Medical Center is
covered under the statutory Moratorium for Bad Debt Write-offs (,'Moratorium").
Section 4008(c) of the Omnibus Budget Reconciliation Act of 1987 (P.L. 100-203). The
Centers for Medicare and Medicaid Services (CMS), has interpreted thaI Moratorium as
applying when an intennediary was allowing the provider to write-off bad debts at lhe
time they were sent to a colleclion agency prior to August I, 1987. Under CMS policy, if
an intemlediary allowed unpaid Medicare accounts as bad debts prior \0 August 1, 1987




       975 Eilsl Third Strcct, Chattanooga, TN 37403 (423)778·7000 www.erlc.lngcr.org
                                                                                                 Page 2 of 3 





  the time when the aeeo\lll\s were sent 10 a collection agency, Medicarc must continue
applying that same principle in all subsequent years and muy not disallow Medicare bad
debts solely on the basis that the account was at a collection agency.

The determination that the Moratorium applied to Erillnger Medical Center was made by
its Fiscal lnlermediary (FI) at that timc in 2005, as evidcnced by the atlachcd work papers
from the PI dated July IS, 2005. (The finding that Erlanger was covered by the
Moratorium with rcspcct to claiming bad dcbts whcn an IIccount WIIS sent to a collection
agency was presumably also reached in many prior bad debt audits at Erlanger occurring
after Medicare first applied that policy in 1989.)

Irrespect ive of the PI 's finding with respect to Erlanger's 2005 audit, Erlanger would be
entitled to the benefit of the Moratorium unde r the holding in Foo/hill Hospi/al I'. La/vil/,
Medicare & Medicaid Guide (COl) 302,4)2 (D.D.C., May )0, 2008). That case
involved the samc issuc--the appeali ng hospital had claimed bad debts a\ the time Ihat the
accounts were sent to a collection agcncy. In mling in favor of the hospital, the coul1
stated:

               The original version oftbe Moratorium states that "the
               Secretary of Health and Human Services shall rio/make
               any change in/he policy in effect on August I, 1987." 42
               U.S.C. § 1395f note (emphasis addcd). '111e plain meaning
               of th is sentence is that the Secretary is prohibitcd from
               making IIny cllilnges in the agency's bad debt policy as it
               existcd as of August I, 1987.

The court then noted that the Medicare policy requiring accounts to be returned from a
collection agency was no t published until 1989 with a prospectivc effective datc.
Accordingly, the coul1 concluded that an individ Ual provider did not havc to prove what
an intermediary had allowcd for it whcn it was plain that the agency's n8lionlll policy in
place prior to August I, 1987 d id nol bar allowing an unpaid Medicare account as a bad
debt at the lime that the account W'dS sent to a collection agency. IfCMS bel ieves that the
Foothill case was wrongly decidcd, it had a right 10 appcalto the D.C. Circuit. CMS,
however, opted not to appeal the Foo/hl({ decision, and thus, that decision stands liS
precede nt ill for Ihe federal district COUlt for Washington, D.C. Any provider can seek
judicial review ofCMS dec i ~ions in Washington, D.C., 42 U.S.C. § 139500 (f).
Accordingly, the precedent in the Foo/hill case app lies to Erlanger.

Based both on the FI's conclusion tllllt the Moratorium applies to Erlanger because of
whllt Medicare allowed at Erlanger prior to August I, 1987, nnd the COllrt's decision in
the Foothill case, DIG's conclusion that Erlanger's claim of unpaid Mcdicarc accounts at
the lime that the accounts wcre rcferred to a collection agcncy was unallowable in any
year is erroneous and should be eliminated from the report.




                                              2
                                                                                               Page 3 of 3 





    CS pOllli£   t o Recommendations

•     Erlanger will request a reopening for the FY2005 cost to reduce and refund those
      errors identified in the audit related to non-covered services mistakenly claimed as
      allowable bad debts and also those bad dcbts determined during the audit to have
      inadequate documentation to support the indigcncc dctcrmi nations. The
      overpayments related to the Pari A report total $38,495. The overpayments feluted to
      the Part B report total $34,545.

•     Erhl11ger will also rcvicw its FY2008 cost repOlt and ensul'C compliance with thc laws
      and regulations governing Medicare bad debt policy und willillso tHke steps to avoid
      including claims for bad debts on noncovercd services or other non ullowHblc bad
      debts in future Medicare cost reports.


If you have any questions regarding this response, please fecI free to contact me di rectly.


Respectfully,




Alana Sullivan
Chief Compliance Officer
Erlanger Ilealth System



Attachment




                                              J
